APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Order in the Supreme Court of the
State of New Jersey
(May 3, 2019). . . . . . . . . . . . . . . . . App. 1
Appendix B Opinion in the Superior Court of New
Jersey, Appellate Division
(November 8, 2018). . . . . . . . . . . . App. 2
Appendix C Order Denying Permit to Carry
Handgun in the Superior Court of
New Jersey, County of Gloucester
(December 13, 2017) . . . . . . . . . . . App. 9
Appendix D U.S. Const. amend. II . . . . . . . . . App. 11
U.S. Const. amend. XIV, §1 . . . . App. 11
N.J. Stat. Ann. §2C:39-5. . . . . . . App. 11
N.J. Stat. Ann. §2C:39-6. . . . . . . App. 12
N.J. Stat. Ann. §2C:58-4. . . . . . . App. 15
N.J. Admin. Code §13:54-2.4 . . . App. 19
Appendix E Letter to Mark P. Cheeseman from
Franklin S. Brown, Jr., Chief of Police
(September 27, 2017) . . . . . . . . . App. 24

App. 1

APPENDIX A
SUPREME COURT OF NEW JERSEY
C-822 September Term 2018
082155
[Filed May 3, 2019]
_______________________
In re Application for
)
Permit to Carry a
)
Handgun of Mark
)
Cheeseman.
)
)
(Mark P. Cheeseman )
Petitioner
)
_______________________ )
ORDER
A petition for certification of the judgment in A002412-17 having been submitted to this Court, and
the Court having considered the same;
It is ORDERED that the petition for certification is
denied, with costs.
WITNESS, the Honorable Stuart Rabner, Chief
Justice, at Trenton, this 30th day of April, 2019.
/s/
CLERK OF THE SUPREME COURT

App. 2

APPENDIX B
NOT FOR PUBLICATION WITHOUT THE
APPROVAL OF THE APPELLATE DIVISION
This opinion shall not “constitute precedent or be
binding upon any court.” Although it is posted on the
internet, this opinion is binding only on the parties in
the case and its use in other cases is limited.
R. 1:36-3.
SUPERIOR COURT OF NEW JERSEY
APPELLATE DIVISION
DOCKET NO. A-2412-17T2
[Filed November 8, 2018]
___________________________________
IN RE APPLICATION FOR
)
PERMIT TO CARRY A HANDGUN )
OF MARK CHEESEMAN.
)
___________________________________ )
Submitted October
November 8, 2018

22,

2018

–

Decided

Before Judges Gooden Brown and Rose.
On appeal from the Superior Court of New
Jersey, Law Division, Gloucester County.
Mark P. Cheeseman, appellant pro se.
Charles A. Fiore, Gloucester County Prosecutor,
attorney for respondent (Dana R. Anton, Senior
Assistant Prosecutor, on the brief).

App. 3
PER CURIAM
Applicant Mark Cheeseman appeals from the
December 13, 2017 Law Division order denying his
application for a permit to carry a firearm pursuant to
N.J.S.A. 2C:58-4. We affirm.
Obtaining a permit to carry a firearm “is the most
closely-regulated aspect of gun-control laws.” In re
Preis, 118 N.J. 564, 568 (1990). Pursuant to N.J.S.A.
2C:58-4, an applicant must first submit an application
“to the chief police officer of the municipality in which
the applicant resides, or to the superintendent,” if
there is no chief of police in the municipality. N.J.S.A.
2C:58-4(c). Under N.J.S.A. 2C:58-4(c):
No application shall be approved by the chief
police officer or the superintendent unless the
applicant demonstrates that he is not subject to
any of the disabilities set forth in [N.J.S.A.
2C:58-3(c)], that he is thoroughly familiar with
the safe handling and use of handguns, and that
he has a justifiable need to carry a handgun.
Justifiable need is defined in the regulations
adopted pursuant to N.J.S.A. 2C:58-1 to -19 as, “urgent
necessity for self-protection, as evidenced by serious
threats, specific threats, or previous attacks, which
demonstrate a special danger to the applicant’s life that
cannot be avoided by reasonable means other than by
issuance of a permit to carry a handgun.” N.J.A.C.
13:54-2.4(d)(1). This codification of the “justifiable
need” standard closely mirrors an earlier explanation
of “need” that was laid out by our Supreme Court in
Siccardi v. State, 59 N.J. 545, 557 (1971).

App. 4
Upon receiving the approval of the chief of police or
superintendent, as the case may be, the application is
then presented to a judge of the Superior Court of the
county in which the applicant resides who “shall issue”
the permit after being satisfied that the applicant is
qualified and has established a “justifiable need” for
carrying a handgun. N.J.S.A. 2C:58-4(d). However, if
the application is denied by the chief of police or the
superintendent, pursuant to N.J.S.A. 2C:58-4(e), the
applicant “may request a hearing in the Superior Court
of the county in which he resides . . . by filing a written
request for such a hearing within [thirty] days of the
denial.”
Here, Cheeseman submitted his application to the
Chief of Police of Glassboro Township, where he
resided. On September 27, 2017, the Chief denied the
application after concluding that Cheeseman did not
demonstrate “a justifiable need to carry a handgun”
under the standard enunciated in Siccardi. Thereafter,
Cheeseman filed a timely appeal of the Chief’s denial to
the Gloucester County Superior Court.
During a hearing conducted on December 13, 2017,
the Chief testified that after reviewing the application,
he concluded that Cheeseman’s basis for seeking the
permit was for “personal protection.” However,
according to the Chief, although Cheeseman referred to
“some crimes” occurring in the area where he lived,
including “drug activity” and a “stabbing” in the
entrance of a mini-mart, Cheeseman made no mention
of any specific threat made towards him that led the
Chief “to believe that [Cheeseman] was in jeopardy of
any immediate violence.”

App. 5
After the hearing, in an oral decision, the trial court
upheld the Chief’s denial, finding Cheeseman failed to
demonstrate “a justifiable need” to carry a handgun.
The court found no “articulated threat” was made
towards Cheeseman and noted that while Cheeseman
did cite to “incidences . . . in [his] general neighborhood
and [his] extended neighborhood, . . . nothing []
specifically point[ed] to [his] justifiable need to carry a
firearm outside of [his] home.” The court also rejected
Cheeseman’s contention that denying his application
based on his “generalized” fears violated his
constitutional right under the Second Amendment. The
court entered a memorializing order and this appeal
followed.
On appeal, Cheeseman argues that New Jersey’s
system of either granting or denying carry permits “on
a case-by-case basis” is contrary to the Supreme Court’s
holding in District of Columbia v. Heller, 554 U.S. 570
(2008), and its progeny. According to Cheeseman, “[t]he
historical explanation that [N.J.S.A.] 2C:58-4’s
‘justifiable need’ is synonymous with [Heller’s] lawful
purpose simply allows the [c]ourt to sever the [Siccardi]
[r]ule and [N.J.A.C. 13:54-2.4(d)(1)] from the statute
which would follow the precedent set forth by
SCOTUS.” In In re Pantano, 429 N.J. Super. 478 (App.
Div. 2013), we rejected similar arguments, and
concluded that “Heller would not affect the
constitutionality of N.J.S.A. 2C:58-4.” Id. at 487. We
discern no basis to reach a different conclusion here.
The issue in Heller was whether the Second
Amendment protects only the right to possess
and carry a firearm in connection with military

App. 6
service or also protects an individual’s right to
possess a firearm for other purposes such as selfdefense and hunting. The Court held that the
Second Amendment protects an individual right
to keep and bear firearms, and that this holding
required invalidation of District of Columbia
statutes that totally prohibited handgun
possession in the home and required any lawful
firearm in the home to be disassembled or bound
by a trigger lock, thus rendering it inoperable.
[In re Dubov, 410 N.J. Super. 190, 196-97 (App.
Div. 2009) (citations omitted).]
The United States Supreme Court later held that the
Second Amendment right is “fully applicable” to the
states through the Fourteenth Amendment. McDonald
v. City of Chicago, 561 U.S. 742, 750 (2010).
Beginning “with the premise that ‘statutes are
presumed constitutional,’” in Pantano, we hesitated “to
find a constitutional infirmity absent clear expression
of the law from the United States Supreme Court,
particularly where it would disturb settled law.” 429
N.J. Super. at 487 (quoting Whirlpool Props., Inc. v.
Dir., Div. of Taxation, 208 N.J. 141, 175 (2011)). We
noted that federal district courts, including New
Jersey’s, and other courts have “concluded that our
state law governing permits to carry handguns does not
‘burden any protected conduct’ under the Second
Amendment,” id. at 488 (quoting Piszczatoski v. Filko,
840 F. Supp. 2d 813, 829 (D.N.J. 2012), aff’d, Drake v.
Filko, 724 F.3d 426 (3d Cir. 2013)), and “a statute
prohibiting carrying a handgun outside the home
without a permit was not at odds with Heller or

App. 7
McDonald.” Ibid. (citing Williams v. State, 10 A.3d
1167, 1169, 1177 (Md. 2011)). Rather, “Heller
addressed only the right to bear arms in the home,”
and “[t]he language of Justice Scalia’s majority opinion
deliberately limited the scope of the right recognized to
the home.” Ibid. (quoting Piszczatoski, 840 F. Supp. 2d
at 821).
We acknowledged that “[o]ther courts have observed
that the application of the Second Amendment to
possession of firearms outside the home is at least
uncertain.” Id. at 489. We also recognized that in
Kachalsky v. County of Westchester, 701 F.3d 81, 93101 (2d Cir. 2012), the Second Circuit upheld the
constitutionality of a New York law requiring a person
seeking an unrestricted permit to carry a concealed
handgun in public to show “proper cause,” despite the
burden placed on the permit applicant. Pantano, 429
N.J. Super. at 489-90. We noted the similarity between
“New York’s ‘proper cause’ requirement” and “New
Jersey’s statutory requirement of ‘justifiable need.’” Id.
at 489.1
Since we decided Pantano, the Third Circuit upheld
the constitutionality of the justifiable need requirement
in Drake, 724 F.3d at 429, concluding that it was a
“‘longstanding’ regulation” that “does not burden
1

We also acknowledged that the Seventh Circuit Court of Appeals
extended the Second Amendment right to carry a handgun outside
the home in Moore v. Madigan, 702 F.3d 933, 942 (7th Cir. 2012).
There, “[i]n setting aside an Illinois law that banned concealed
carrying of weapons, the court contrasted the Illinois law with New
York’s law held constitutional in Kachalsky.” Pantano, 429 N.J.
Super. at 490 n.2.

App. 8
conduct within the scope of the Second Amendment’s”
protections. Acknowledging that its inquiry could
simply stop there, the Third Circuit expounded that
“New Jersey’s schema takes into account the
individual’s right to protect himself,” through “careful
case-by-case scrutiny of each application,” and though
“[o]ther states have determined that it is unnecessary
to conduct the careful, case-by-case scrutiny . . . before
issuing a permit to publicly carry a handgun,” New
Jersey’s “individualized, tailored approach” would pass
constitutional muster. Id. at 439.
Thus, here, as in Pantano, we conclude that “given
the presumption of our law’s constitutionality, the lack
of clarity that the Supreme Court in Heller intended to
extend the Second Amendment right to a state
regulation of the right to carry outside the home, and
the Second [and Third] Circuit’s explicit affirmation,”
N.J.S.A. 2C:58-4’s case-by-case schema, requiring a
showing of justifiable need, withstands constitutional
scrutiny post-Heller and its progeny. Pantano, 429 N.J.
Super. at 490. See also In re Wheeler, 433 N.J. Super.
560, 613 (App. Div. 2013) (holding that the “justifiable
need” requirement does not violate the Second
Amendment).
Affirmed.
I hereby certify that the foregoing
is a true copy of the original on
file in my office.
/s/
CLERK OF THE APPELLATE DIVISION

App. 9

APPENDIX C
PREPARED BY: THE COURT
SUPERIOR COURT OF NEW JERSEY
COUNTY OF GLOUCESTER
LAW DIVISION - CRIMINAL PART
CRIMINAL ACTION
[Filed December 13, 2017]
_____________________________
APPLICATION FOR PERMIT )
TO CARRY HANDGUN
)
)
Mark Cheeseman
)
34 State Street
)
Glassboro, NJ 08028
)
_____________________________ )
ORDER DENYING PERMIT TO
CARRY HANDGUN
THIS MATTER, having come before the Court on
the appeal of the application of Mark Cheeseman, Pro
Se and Michael Mellon, Assistant Prosecutor,
appearing on behalf of the State of New Jersey; and the
Court having considered the applicant’s papers, and
the Prosecutor’s comments; and for good cause shown;
IT IS, on this 13th day of December, 2017,
ORDERED as follows:

App. 10
1. The application for a New Jersey Firearms
Permit to Carry of Mark Cheeseman, is hereby
Denied; and
2. This order shall be filed with the Clerk in the
Office of Criminal Case Management in Gloucester
County, and a copy served upon the applicant, and
Deputy Chief Franklin Brown of the Glassboro Police
Department.
/s/Kevin T. Smith
Kevin T. Smith, J.S.C.
Gloucester County Justice Complex,
70 Hunter Street, 3rd Floor
Woodbury, NJ 08096; 856-686-7540
Name: Mark Cheeseman
DOB: XX/XX/1964
SS#: XXX-XX-7225
SBI#: 491369D

App. 11

APPENDIX D
CONSTITUTIONAL PROVISIONS,
STATUTES AND REGULATIONS INVOLVED
U.S. Const. amend. II
A well regulated Militia, being necessary to the
security of a free State, the right of the people to keep
and bear Arms, shall not be infringed.
U.S. Const. amend. XIV, §1
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law
which shall abridge the privileges or immunities of
citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
N.J. Stat. Ann. §2C:39-5
Unlawful possession of weapons
***
b. Handguns. (1) Any person who knowingly has in
his possession any handgun, including any antique
handgun, without first having obtained a permit to
carry the same as provided in N.J.S.2C:58-4, is guilty
of a crime of the second degree. (2) If the handgun is in
the nature of an air gun, spring gun or pistol or other

App. 12
weapon of a similar nature in which the propelling
force is a spring, elastic band, carbon dioxide,
compressed or other gas or vapor, air or compressed
air, or is ignited by compressed air, and ejecting a
bullet or missile smaller than three-eighths of an inch
in diameter, with sufficient force to injure a person it is
a crime of the third degree. . . .
N.J. Stat. Ann. §2C:39-6
Exemptions
***
e. Nothing in subsections b., c., and d. of
N.J.S.2C:39-5 shall be construed to prevent a person
keeping or carrying about his place of business,
residence, premises or other land owned or possessed
by him, any firearm, or from carrying the same, in the
manner specified in subsection g. of this section, from
any place of purchase to his residence or place of
business, between his dwelling and his place of
business, between one place of business or residence
and another when moving, or between his dwelling or
place of business and place where the firearms are
repaired, for the purpose of repair. For the purposes of
this section, a place of business shall be deemed to be
a fixed location.
f. Nothing in subsections b., c., and d. of
N.J.S.2C:39-5 shall be construed to prevent:
(1) A member of any rifle or pistol club organized
in accordance with the rules prescribed by the
National Board for the Promotion of Rifle Practice,
in going to or from a place of target practice,

App. 13
carrying firearms necessary for target practice,
provided that the club has filed a copy of its charter
with the superintendent and annually submits a list
of its members to the superintendent and provided
further that the firearms are carried in the manner
specified in subsection g. of this section;
(2) A person carrying a firearm or knife in the
woods or fields or upon the waters of this State for
the purpose of hunting, target practice or fishing,
provided that the firearm or knife is legal and
appropriate for hunting or fishing purposes in this
State and he has in his possession a valid hunting
license, or, with respect to fresh water fishing, a
valid fishing license;
(3) A person transporting any firearm or knife
while traveling:
(a) Directly to or from any place for the
purpose of hunting or fishing, provided the
person has in his possession a valid hunting or
fishing license; or
(b) Directly to or from any target range, or
other authorized place for the purpose of
practice, match, target, trap or skeet shooting
exhibitions, provided in all cases that during the
course of the travel all firearms are carried in
the manner specified in subsection g. of this
section and the person has complied with all the
provisions and requirements of Title 23 of the
Revised Statutes and any amendments thereto
and all rules and regulations promulgated
thereunder; or

App. 14
(c) In the case of a firearm, directly to or from
any exhibition or display of firearms which is
sponsored by any law enforcement agency, any
rifle or pistol club, or any firearms collectors
club, for the purpose of displaying the firearms
to the public or to the members of the
organization or club, provided, however, that not
less than 30 days prior to the exhibition or
display, notice of the exhibition or display shall
be given to the Superintendent of the State
Police by the sponsoring organization or club,
and the sponsor has complied with any
reasonable safety regulations the
superintendent may promulgate. Any firearms
transported pursuant to this section shall be
transported in the manner specified in
subsection g. of this section; . . .
***
(4) A person from keeping or carrying about
a private or commercial aircraft or any boat, or
from transporting to or from the aircraft or boat
for the purpose of installation or repair of a
visual distress signaling device approved by the
United States Coast Guard.
g. Any weapon being transported under paragraph
(2) of subsection b., subsection e., or paragraph (1) or
(3) of subsection f. of this section shall be carried
unloaded and contained in a closed and fastened case,
gunbox, securely tied package, or locked in the trunk of
the automobile in which it is being transported, and in
the course of travel shall include only deviations as are
reasonably necessary under the circumstances. . . .

App. 15
N.J. Stat. Ann. §2C:58-4
Permits to carry handguns
a. Scope and duration of authority. Any person who
holds a valid permit to carry a handgun issued
pursuant to this section shall be authorized to carry a
handgun in all parts of this State, except as prohibited
by subsection e. of N.J.S.2C:39-5. One permit shall be
sufficient for all handguns owned by the holder thereof,
but the permit shall apply only to a handgun carried by
the actual and legal holder of the permit.
All permits to carry handguns shall expire two
years from the date of issuance or, in the case of an
employee of an armored car company, upon
termination of his employment by the company
occurring prior thereto whichever is earlier in time,
and they may thereafter be renewed every two years in
the same manner and subject to the same conditions as
in the case of original applications.
b. Application forms. All applications for permits to
carry handguns, and all applications for renewal of
permits, shall be made on the forms prescribed by the
superintendent. Each application shall set forth the full
name, date of birth, sex, residence, occupation, place of
business or employment, and physical description of
the applicant, and any other information the
superintendent may prescribe for the determination of
the applicant’s eligibility for a permit and for the
proper enforcement of this chapter. The application
shall be signed by the applicant under oath, and shall
be indorsed by three reputable persons who have
known the applicant for at least three years preceding

App. 16
the date of application, and who shall certify thereon
that the applicant is a person of good moral character
and behavior.
c. Investigation and approval. Each application
shall in the first instance be submitted to the chief
police officer of the municipality in which the applicant
resides, or to the superintendent, (1) if the applicant is
an employee of an armored car company, or (2) if there
is no chief police officer in the municipality where the
applicant resides, or (3) if the applicant does not reside
in this State. The chief police officer, or the
superintendent, as the case may be, shall cause the
fingerprints of the applicant to be taken and compared
with any and all records maintained by the
municipality, the county in which it is located, the
State Bureau of Identification and the Federal Bureau
of Identification. He shall also determine and record a
complete description of each handgun the applicant
intends to carry.
No application shall be approved by the chief police
officer or the superintendent unless the applicant
demonstrates that he is not subject to any of the
disabilities set forth in subsection c. of N.J.S.2C:58-3,
that he is thoroughly familiar with the safe handling
and use of handguns, and that he has a justifiable need
to carry a handgun.
Each application form shall be accompanied by a
written certification of justifiable need to carry a
handgun, which shall be under oath and, in the case of
a private citizen, shall specify in detail the urgent
necessity for self-protection, as evidenced by specific
threats or previous attacks which demonstrate a

App. 17
special danger to the applicant’s life that cannot be
avoided by means other than by issuance of a permit to
carry a handgun. Where possible, the applicant shall
corroborate the existence of any specific threats or
previous attacks by reference to reports of the incidents
to the appropriate law enforcement agencies.
If the application is not approved by the chief police
officer or the superintendent within 60 days of filing, it
shall be deemed to have been approved, unless the
applicant agrees to an extension of time in writing.
d. Issuance by Superior Court; fee. If the application
has been approved by the chief police officer or the
superintendent, as the case may be, the applicant shall
forthwith present it to the Superior Court of the county
in which the applicant resides, or to the Superior Court
in any county where he intends to carry a handgun, in
the case of a nonresident or employee of an armored car
company. The court shall issue the permit to the
applicant if, but only if, it is satisfied that the applicant
is a person of good character who is not subject to any
of the disabilities set forth in subsection c. of
N.J.S.2C:58-3, that he is thoroughly familiar with the
safe handling and use of handguns, and that he has a
justifiable need to carry a handgun in accordance with
the provisions of subsection c. of this section. The court
may at its discretion issue a limited-type permit which
would restrict the applicant as to the types of handguns
he may carry and where and for what purposes the
handguns may be carried. At the time of issuance, the
applicant shall pay to the county clerk of the county
where the permit was issued a permit fee of $20.

App. 18
e. Appeals from denial of applications. Any person
aggrieved by the denial by the chief police officer or the
superintendent of approval for a permit to carry a
handgun may request a hearing in the Superior Court
of the county in which he resides or in any county in
which he intends to carry a handgun, in the case of a
nonresident, by filing a written request for a hearing
within 30 days of the denial. Copies of the request shall
be served upon the superintendent, the county
prosecutor, and the chief police officer of the
municipality where the applicant resides, if he is a
resident of this State. The hearing shall be held within
30 days of the filing of the request, and no formal
pleading or filing fee shall be required. Appeals from
the determination at the hearing shall be in accordance
with law and the rules governing the courts of this
State.
If the superintendent or chief police officer approves
an application and the Superior Court denies the
application and refuses to issue a permit, the applicant
may appeal the denial in accordance with law and the
rules governing the courts of this State.
f. Revocation of permits. Any permit issued under
this section shall be void at the time the holder thereof
becomes subject to any of the disabilities set forth in
subsection c. of N.J.S.2C:58-3, and the holder of a void
permit shall immediately surrender the permit to the
superintendent who shall give notice to the licensing
authority.
Any permit may be revoked by the Superior Court,
after hearing upon notice to the holder, if the court
finds that the holder is no longer qualified for the

App. 19
issuance of a permit. The county prosecutor of any
county, the chief police officer of any municipality, the
superintendent, or any citizen may apply to the court
at any time for the revocation of any permit issued
pursuant to this section.
N.J. Admin. Code §13:54-2.4
Application for a permit to carry a handgun
(a) Every person applying for a permit to carry a
handgun shall furnish such information and
particulars as set forth in the application form
designated SP 642. The application shall be signed by
the applicant under oath and shall be endorsed by
three reputable persons who have known the applicant
for at least three years preceding the date of
application, and who shall also certify thereon that the
applicant is a person of good moral character and
behavior. Applications can be obtained at police
departments and State Police stations.
(b) Each applicant shall demonstrate a thorough
familiarity with the safe handling and use of handguns
by indicating in the space provided therefor on the
application form, and on any sworn attachments
thereto, any relevant information. Thorough familiarity
with the safe handling and use of handguns shall be
evidenced by:
1. Completion of a firearms training course
substantially equivalent to the firearms training
approved by the Police Training Commission as
described by N.J.S.A. 2C:39-6j;

App. 20
2. Submission of an applicant’s most recent
handgun qualification scores utilizing the
handgun(s) he or she intends to carry as evidenced
by test firings administered by a certified firearms
instructor of a police academy, a certified firearms
instructor of the National Rifle Association, or any
other recognized certified firearms instructor; or
3. Passage of any test in this State’s laws
governing the use of force administered by a
certified instructor of a police academy, a certified
instructor of the National Rifle Association, or any
other recognized certified instructor.
(c) The information in (b) above shall be
accompanied and validated by certifications of the
appropriate instructor(s).
(d) Each application form shall also be accompanied
by a written certification of justifiable need to carry a
handgun, which shall be under oath and which:
1. In the case of a private citizen, shall specify in
detail the urgent necessity for self-protection, as
evidenced by specific threats or previous attacks,
which demonstrate a special danger to the
applicant’s life that cannot be avoided by means
other than by issuance of a permit to carry a
handgun. Where possible, the applicant shall
corroborate the existence of any specific threats or
previous attacks by reference to reports of such
incidents to the appropriate law enforcement
agencies; or

App. 21
2. In the case of employees of private detective
agencies, armored car companies and private
security companies, that:
i. In the course of performing statutorily
authorized duties, the applicant is subject to a
substantial threat of serious bodily harm; and
ii. That carrying a handgun by the applicant
is necessary to reduce the threat of unjustifiable
serious bodily harm to any person.
(e) The completed application together with two sets
of the applicant’s fingerprints and fees as established
by N.J.A.C. 13:59 in accordance with N.J.S.A. 53:1-20.5
et seq., four photographs (1 1/2 x 1 1/2 square), a
consent for mental health records search form
designated S.P. 66, and a permit fee of $ 20.00 payable
to the County Clerk where the permit is to be issued
shall be submitted to the chief police officer of the
municipality in which the applicant resides, or the
Superintendent:
1. If there is no chief police officer in the
municipality where the applicant resides; or
2. If the applicant is a non-resident of this State
or if the applicant is an employee of an armored car
company.
(f) An application for a permit to carry a handgun
shall be prioritized and be investigated on an expedited
basis and approved or disapproved without undue
delay, within 14 days if possible, under the following
circumstances:

App. 22
1. The applicant is a private citizen who applies
for a permit to purchase a handgun and/or a firearm
purchaser identification card contemporaneously
with the application for a permit to carry a handgun
or who has previously obtained a handgun purchase
permit from the same licensing authority; and
i. Has been the victim of an act of violence
that resulted in the infliction of serious or
significant bodily injury, or was credibly
threatened with an act of violence that if carried
out would result in the infliction of serious or
significant bodily injury, or subjected to an
incident in which the actor was armed with and
used a deadly weapon or threatened by word or
gesture to use a deadly weapon as defined in
N.J.S.A. 2C:11-1.c against the applicant, and
there is a substantial likelihood, based on the
information presented in the applicant’s State of
New Jersey Request for Expedited Firearms
Application form (S.P. 398), and any other
information revealed in the investigation of the
application, that the applicant will in the
foreseeable future be subjected to another such
incident; or
ii. Is protected by a court order or under a
condition imposed by the court restraining
another person from contact with the applicant,
and there is a substantial likelihood, based on
the information presented in the applicant’s
State of New Jersey Request for Expedited
Firearms Application form and any other
information revealed in the investigation of the

App. 23
application, that the applicant will in the
foreseeable future be subjected to an act of
violence that if carried out would result in the
infliction of serious or significant bodily injury,
or be subjected to an incident in which the actor
is armed with and would use a deadly weapon or
threaten by word or gesture to use a deadly
weapon as defined in N.J.S.A. 2C:11-1.c against
the applicant;
2. An applicant who meets the criteria in (f)1i or
ii above shall be deemed to have demonstrated
justifiable need (as set forth in N.J.A.C. 13:542.3(a)3); and
3. Approval of an expedited firearms application
request does not automatically denote approval for
a permit to carry a handgun. All applicants are
subject to the provisions set forth in this chapter for
final approval and issuance of cards and permits.

App. 24

APPENDIX E
GLASSBORO POLICE DEPARTMENT
1 SOUTH MAIN STREET GLASSBORO, NJ 08028
RECEPTION: (856) 881-1501 FAX: (856) 881-6872
September 27, 2017
Mark P. Cheeseman
34 State Street
Glassboro, New Jersey
Dear Mr. Cheeseman:
I have received your application for a permit to carry a
handgun and the documentation that you have
provided to support this request. Upon my review of
your application, supporting documents and the
firearms background investigation report, I have
concluded that you have not demonstrated a justifiable
need to carry a handgun; therefore, I am denying your
application.
The courts have determined the following as a result of
Siccardi v. State of NJ:
“The applicant shall specify in detail the urgent
necessity for self-protection, as evidenced by
specific threats or previous attacks which
demonstrate a special danger to the applicant’s life that
cannot be avoided by means other than by issuance of
a permit to carry a handgun. Where possible, the

App. 25
applicant shall corroborate the existence of any specific
threats or previous attacks by reference to reports of
such incident to the appropriate law enforcement
agencies.”
I do not believe that your “notarized certification of
need” meets the requirement as established by the
courts.
Under New Jersey 2C:58-4e you have thirty (30)
days to appeal this denial by writing to the
Superior Court of Gloucester County and
requesting a hearing.
Respectfully,
/s/Franklin S. Brown, Jr.
Franklin S. Brown, Jr.
Chief of Police

